NATIONAL OCEANIC
AND ATMOSPHERIC
ADMINISTRATION
NOAA’s Cost-Plus-Award-
Fee and Award-Term
Processes Need to Support
Fees and Extensions




FINAL REPORT NO. OIG-12-027-A
MAY 18, 2012



U.S. Department of Commerce
Office of Inspector General
Office of Audit and Evaluation

For Public Release
                                                        UNITED STATES DEPARTMENT OF COMMERCE
                                                        Office of Inspector General
                                                        Washington, D.C. 20230




May 18, 2012

MEMORANDUM FOR: 	 Mitchell J. Ross, Director
                  Acquisition and Grants Office
                              Nt t ~?spheric Administration


FROM: 	                       Andrew Katsaros
                              Assistant Inspector General for Audit


SUBJECT:                      NOAA's Cost-Plus-Award-Fee and Award-Term Processes
                                 Need to Support fees and Extensions
                              Final Report No. OIG-12-027-A

We are providing our final audit report on the National Oceanic and Atmospheric
Administration 's (NOAA's) management of cost-plus-award-fee (CPAF) and cost-plus-award­
term (CPAT) contracts. Our audit objectives were to determine whether rating and payment
decisions were supported and whether NOAA effectively monitored award-fee and award­
term plans and contractor performance. We assessed award-fee and award-term ratings and
payments made by NOAA, based on documentation used to support them, and evaluated
NOAA's guidance, payment structure, and evaluation criteria for the nine contracts we
reviewed: four CPAF contracts, four CPAT contracts, and one contract with both award fees
and terms.

NOAA should use the two types of contracts more effectively to encourage excellence in
contractor performance. Often, evaluation documents were not consistently maintained by
NOAA performance monitors or did not contain enough specific examples of good or bad
contractor performance to justify award fees and award-term extensions. Also, award-fee and
award-term plans developed by NOAA did not consistently and clearly contain payment
structures or identify criteria for evaluations that encouraged contractors to excel. In addition,
descriptions defining scores to rate contractor performance were subjective and unclear.
Further, NOAA did not maintain documentation in the contract file justifying the use of these
contract types as requi red by the Federal Acquisition Regulation. In some cases, the selection of
a CPAF or CPAT contract type may have been questionable. Together these issues raise
questions on whether NOAA had assurances that the use of CPAF or CPAT contracts was
appropriate. Finally, the complete picture of NOAA's use of CPAF and CPAT contracts is
unclear. Data reported in the Federal Procurement Data System- Next Generation and records
maintained by NOAA on the use of CPAF and CPAT contracts were inaccurate and
incomplete.
We have received your response to our draft report. Where appropriate, we have modified
this final report based on this response. The formal NOAA response is included as appendix E.
The final report will be posted on OIG's website pursuant to section 8L of the Inspector
General Act of 1978, as amended.

In accordance with Department Administrative Order 213-5, within 60 days of the date of this
memorandum, please provide us with an action plan that responds to all of the report
recommendations. We appreciate the cooperation and courtesies extended to us by your staff
during our audit. Please direct any inquiries regarding this report to me at (202) 482-7859 or
Mark Zabarsky at (202) 482-3884.

Attachment

cc: 	 Edward Horton, Chief Administrative Officer, NOAA
      Chad Wagner, Division Director, Policy and Oversight Division, NOAA AGO
      Dale Henderson, Chief Review and Analysis, Policy and Oversight Division, NOAA AGO
      Kelly Mabe, Deputy Director, National Capital Acquisition Division, NOAA AGO
      Thomas Fout, NESDIS Branch Chief, NCAD, NOAA AGO
      Mack Cato, Audit Liaison, NOAA
                                           Report In Brief                                      M AY 1 8 , 2 01 2




Background                              NATIONAL OCEANIC AND ATMOSPHERIC
As of June 2011, NOAA had nine          ADMINISTRATION
active cost-plus-award-fee (CPAF)
and cost-plus-award-term (CPAT)         NOAA’s Cost-Plus-Award-Fee and Award-Term Processes
contracts, which provide financial
incentives based on contractor
                                        Need to Support Fees and Extensions
performance. These contracts had        OIG-12-027-A
a potential maximum value of ap-
proximately $1.6 billion, including
approximately $87 million in availa-
                                        WHAT WE FOUND
ble award-fee pools and about $386      NOAA gave contractors high ratings, resulting in substantial award fees or
million in available award-term peri-   extended contract periods of performance, for eight of nine contracts. However,
ods. While incentive contracts can      the ratings associated with four of these contracts lacked sufficient support to
encourage excellence in contractor      demonstrate that the contractor met or exceeded the award-fee or award-term
performance, they can be burden-        evaluation criteria. As a result, approximately $43.8 million was paid in award
some to administer and require          fees or contract extensions without proper justification. On some contracts, the
effective monitoring to ensure that
                                        performance monitors did not maintain documentation to support the ratings,
contract dollars are spent wisely
and that award fees and terms are       and on other contracts, the examples and comments provided did not contain
justified based on contractor per-      enough information to determine whether the ratings, award fees, and award
formance.                               terms were warranted. In addition, NOAA’s award-fee payment structures
                                        provided little incentive for contractors to excel in executing their contracts.
Why We Did This Review                  Also, weaknesses existed in the management of NOAA’s CPAF and CPAT
In December 2007, the Office of         contracts.
Management and Budget’s Office of
Federal Procurement Policy issued
                                        WHAT WE RECOMMEND
guidance to chief acquisition offic-    We recommend that the Director of the NOAA Acquisition and Grants Office:
ers and senior procurement execu-
tives to review and update their           1. 	 Require performance monitors to provide narrative comments that
acquisition policies on the appropri-           identify specific strengths, weaknesses, and deficiencies to support
ate use of incentive contracts. In              assigned ratings.
this audit, we assessed award-fee
and award-term ratings and pay-            2. 	 Develop award-fee and award-term incentive structures that encourage
ments made by NOAA, based on                    contractor excellence.
documentation used to support
                                           3. 	 Update the performance evaluation plans for contracts
them, and evaluated NOAA’s
award-fee and award-term guid-                  DG133E10CN0229 and DG133E09CN0094 to add more measurable
ance, payment structure, and evalu-             award-fee criteria.
ation criteria for nine incentive          4. 	 Develop measurable and outcome-based criteria for assessing contractor
contracts: four CPAF contracts,
                                                performance for award fees and award-term extensions.
four CPAT contracts, and one con-
tract with both award fees and             5. 	 Require a cost-benefit analysis in decisions on CPAF and CPAT 

terms.                                          contracts. 

                                           6. 	 Establish clear division of responsibility for the evaluation team and
                                                prohibit the same official from performing multiple roles.
                                           7. 	 Develop controls over the maintenance of contract files and contract
                                                data to ensure more immediate availability and completeness of
                                                documentation for contract actions.
  DEPARTMENT OF COMMERCE
U.S.                                                                                                                 OFFICE OF INSPECTOR GENERAL


Contents 

Introduction .......................................................................................................................................................1
 
Findings and Recommendations ....................................................................................................................4
 
       I.	     Management of CPAF and CPAT Contracts Needs Improvement ......................................4
 
               A. Contractor Ratings Were Not Adequately Supported to Justify Award-Fee 

                  Payments and Award-Term Extensions .................................................................................4
 
               B. Payment Structures Do Not Provide Adequate Distinctions Between Satisfactory 

                  and Excellent Contractor Performance..................................................................................6
 
              C. Evaluation Criteria Do Not Adequately Support Contractor Performance 

                 Assessments..................................................................................................................................6
 
              D. NOAA Entered into CPAF and CPAT Contracts Without Sufficient Knowledge 

                 of Their Appropriateness .........................................................................................................7
 
               E. Overlapping Award-Fee and Award-Term Responsibilities Create 

                  Additional Risks............................................................................................................................9
 
       II.	  Inaccurate and Incomplete Reporting of NOAA’s Open and Active CPAF and CPAT

             Contracts............................................................................................................................................9
 
       Recommendations................................................................................................................................. 11
 
Summary of Agency and OIG Comments................................................................................................ 12
 
Appendix A: Objectives, Scope, and Methodology ................................................................................ 13
 
Appendix B: Potential Monetary Benefits ................................................................................................ 16
 
Appendix C: NOAA Award-Fee and Award-Term Processes ........................................................... 17
 
Appendix D: Award-Fee and Award-Term Definitions ........................................................................ 18
 
Appendix E: Agency Response.................................................................................................................... 19
 




                                                                                                                    COVER: Detail of fisheries pediment, 
                                                                                                           U.S. Department of Commerce headquarters,
 
                                                                                                                   by sculptor James Earle Fraser, 1934
 




FINAL REPORT
  DEPARTMENT OF COMMERCE
U.S.                                                                             OFFICE OF INSPECTOR GENERAL


Introduction
As of June 2011, the National Oceanic and Atmospheric Administration (NOAA) had nine
active cost-plus-award-fee (CPAF) and cost-plus-award-term (CPAT) contracts, which provide
financial incentives based on contractor performance. These contracts have a potential
maximum value of approximately $1.6 billion, including approximately $87 million in available
award-fee pools and about $386 million in available award-term periods. While incentive
contracts can encourage excellence in contractor performance, they can be burdensome to
administer and require effective monitoring to ensure contract dollars are spent wisely and that
award fees and terms are justified based on contractor performance.

In December 2007, the Office of Management and Budget’s (OMB’s) Office of Federal
Procurement Policy issued guidance1 to chief acquisition officers and senior procurement
executives to review and update their acquisition policies on the appropriate use of incentive
contracts. In this audit, we reviewed award-fee and award-term ratings and payments made by
NOAA, based on documentation used to support them, and evaluated NOAA’s award-fee and
award-term guidance, payment structure, and evaluation criteria for nine incentive contracts:
four CPAF contracts, four CPAT contracts, and one contract with both award fees and terms.

We found that NOAA gave contractors high ratings,
resulting in substantial award fees or extended
                                                                     Award‐fee and award‐term 
contract periods of performance, for eight of the nine           justifications were not supported. 
contracts.2 However, we found that the ratings
associated with award fees and award-term extensions
on four of these contracts lacked sufficient support to demonstrate that the contractor met or
exceeded the award-fee or award-term evaluation criteria. As a result, approximately $43.8
million was paid in award fees or contract extensions without proper justification, which we
have identified as unsupported costs.3 On some of the contracts, the performance monitors4
did not maintain documentation to support the ratings, and on other contracts, where
documented support was available, the examples and comments provided did not contain
enough information to determine whether the ratings, award fees, and award terms were
warranted.

        Award‐fee payment structures Further, NOAA’s award-fee payment structures provided
         did not provide incentives  little incentive for contractors to excel in executing their
          for contractors to excel.  contracts. For example, all five CPAF contracts we
                                     reviewed allowed awards ranging from 50 percent to 70
percent of the award-fee pool to be paid for satisfactory performance. Additionally, NOAA’s
performance evaluation plans used broad, highly subjective criteria—such as “satisfactory
                                                            
1
  OMB Memorandum, Appropriate Use of Incentive Contracts, December 4, 2007. 

2
  For one contract, award fees were not paid to the contractor because an evaluation period was not completed. 

3
  An unsupported cost is a cost that is questioned by OIG because OIG found that at the time of the audit such

cost was not supported by adequate documentation. 5 U.S.C. App. 3 § 5(f)(2).

4
  Performance monitors provide the continuous evaluation of the contractor’s performance in specific assigned 

areas of responsibility. This often-daily oversight is the foundation of the award-fee and award-term evaluation 

processes. Performance monitors are specialists intimately familiar with their assigned areas of cognizance. 



FINAL REPORT                                                                                                     1
      DEPARTMENT OF COMMERCE
    U.S.                                                                       OFFICE OF INSPECTOR GENERAL

    quality,” “marginal quality,” and “unsatisfactory quality”—making it difficult for performance
    monitors to understand and consistently apply the ratings. Revising performance evaluation
    plans for two specific satellite contracts alone to include measurable award-fee criteria would
    put approximately $61 million in expected award fees for these contracts to better use.
    Appendix B summarizes the monetary benefits identified from this audit.

    Additionally, we found weaknesses in the management of NOAA’s CPAF and CPAT contracts.
    First, NOAA did not ensure adequate separation of duties in evaluating contractor performance
    and awarding fees. The award-fee and award-term plans provided for separation of such duties
    by requiring evaluation teams to consist of an award determining official, a performance
    evaluation board (PEB), and performance monitors. The PEB is responsible for reviewing the
    performance monitors' evaluations, the contractor's self-evaluation, and any other information
    available to arrive at an overall objective and impartial position on the contractor's
    performance. At NOAA, however, this process was not consistently followed. In some
    instances, NOAA officials not only assessed contractor performance but also recommended
    award-fee amounts. Second, NOAA did not maintain documentation in the contract file
    justifying the use of these contract types as required. In some cases, the later conversion of the
    contract suggested that the initial selection of a CPAF and CPAT contract type may have been
    questionable. Together, these issues raise questions on whether NOAA had assurances that the
    use of these contract types was appropriate. Table 1 contains a summary of findings associated
    with the nine contracts.

           Table 1. Summary of Findings Associated with the Nine CPAF and CPAT Contracts

                                                                                                        Issues with
                                    Contractor     Payment                                             Separation of
                                     Ratings       Structure       Issues       Issues     Contract      Duties in
                    Estimated          Not            Not           with         with        Type       Evaluating
     Contract       Contract        Adequately    Adequately     Evaluation   Adjectival     Not        Contractor
        No.          Amount         Supported    Discriminated   Criterion     Ratings     Justified   Performance
    DG133E09 –
1   CN0101         $ 20,598,869                                                                          
    DG133E10 –
2   CN0229           130,703,026                                                
    DG133E09 –
3   CN0094           735,794,197                                                           
    DG133E03 –
4   CN0012            10,032,561                                                          
    EA133E08 –
5   CQ0020           200,000,000                                                            
    DG133E06 –
6   CQ0030            69,999,000                                                           
    DG133W05 –
7   CQ1067           330,000,000                                                             
    DG133E07 –
8   CQ0030            45,000,000                                                                          
    DG133W03 –
9   CQ0021             80,000,000                                                          
    TOTAL          $1,622,127,653
    Source: OIG




    FINAL REPORT                                                                                                2
  DEPARTMENT OF COMMERCE
U.S.                                                                   OFFICE OF INSPECTOR GENERAL

Finally, the complete picture of NOAA’s use of CPAF
                                                                    NOAA contract data reported 
and CPAT contracts is unclear. Data reported in the                 in FPDS‐NG were inaccurate.
Federal Procurement Data System-Next Generation
(FPDS-NG) and records maintained by NOAA on the
use of CPAF and CPAT contracts were inaccurate and incomplete. This occurred, in part,
because NOAA contracting officials did not consistently ensure the accuracy of individual
contracts reported in FPDS-NG or track combination contracts containing award-fee and
award-term provisions.

Appendix A further details the objectives, scope, and methodology of our audit. Appendix B
charts the potential monetary benefits we found from our review. Appendix C outlines
NOAA’s award-fee/award-term processes, while appendix D defines the terms used in this
report.




FINAL REPORT                                                                                       3
  DEPARTMENT OF COMMERCE
U.S.                                                                            OFFICE OF INSPECTOR GENERAL


Findings and Recommendations
    I.        Management of CPAF and CPAT Contracts Needs Improvement

       NOAA needs to use award-fee and award-term contracts more effectively to encourage
       excellence in contractor performance. We reviewed nine CPAF and CPAT contracts and
       identified weaknesses in how NOAA evaluated contractor performance and developed
       award-fee and award-term plans. Often, contractor performance evaluation documents
       were not consistently maintained by NOAA performance monitors or did not contain
       enough specific examples of good or bad contractor performance to justify award fees and
       contract extensions. Also, award-fee and award-term plans developed by NOAA did not
       consistently and clearly identify criteria for evaluations or contain payment structures that
       encouraged contractors to excel. In addition, descriptions defining scores to rate
       contractor performance were subjective and unclear. Further, contracting officials did not
       justify the cost-effectiveness of selecting a CPAF or CPAT contract by evaluating
       administrative costs against expected benefits to the government. Without this evaluation,
       NOAA had no assurance that use of CPAF or CPAT contracts was appropriate.

       A.	 Contractor Ratings Were Not Adequately Supported to Justify Award-Fee Payments and Award-
           Term Extensions

       Contracting officials did not consistently demonstrate that contractor performance ratings
       supported award payments and term extensions. As a result, approximately $43.8 million of
       award fees and award terms may not have been justified.

       Of the nine contracts we reviewed, rating periods had been completed for eight. For the
       remaining contract, a rating period had not been completed because the contract was
       converted to another contract type, so no award fees had been paid. Four contracts had
       sufficient documentation supporting performance monitors’ evaluations and ratings. The
       other four contracts—one award-fee and three award-term—lacked adequate supporting
       documentation to determine whether the assigned ratings and the resulting award fees and
       term extensions were justified. This occurred because NOAA officials responsible for
       documenting contractor performance did not adhere to the processes outlined in the award-
       fee and award-term plans. For some contracts, performance monitors did not provide
       comments or examples to support their adjectival5 or numerical ratings or to indicate that
       key evaluation criteria were satisfied. For those contracts where performance monitors did
       provide narratives to support ratings, the comments or examples were general and lacked
       the detail needed to demonstrate that the ratings were warranted. For example, on one
       award-fee contract—totaling approximately $10 million—to upgrade personnel and
       equipment for the Command and Data Acquisition Stations and Satellite Operations
       Control Center, contracting officials could not provide written evidence of government
                                                            
5
 Adjectival ratings describe what constitutes each level of performance within each performance category, such as
“excellent” or “satisfactory,” and provide assistance in establishing evaluation criteria as shown in FAR section
16.401(e)(3)(iv) and FAR table 16-1.


FINAL REPORT                                                                                                    4
  DEPARTMENT OF COMMERCE
U.S.                                                                    OFFICE OF INSPECTOR GENERAL

    surveillance of the contractor’s performance to support the award fee paid to the
    contractor in the amount of $302,964.

    For one $80 million CPAT contract for the National Weather Service’s river, flood, and
    drought forecasting capabilities, the award consisted of a base period of 5 years and
    included five 1-year award-term periods. The contract called for annual evaluations of the
    contractor’s performance against the criteria stated in the award-term plan. According to
    the award-term plan, the documentation needed to support award-term determinations
    included performance monitors’ evaluations, PEB rating recommendations, and award
    determining official’s decisions. However, a PEB
    chairperson had not been appointed, the PEB had
    never met, and performance monitors’ documentation                 Approximately $43.8 million 
                                                                      of award fees and award terms 
    was available only for the first award-term period. We             may not have been justified.
    found that the supporting documentation was either
    incomplete or unavailable. For example, performance
    monitors generally provided numerical ratings and less than one-sentence explanations to
    support rating recommendations. In some instances, no narrative descriptions were
    included with the ratings. Support for superior ratings included general comments such as
    “there were no quality problems,” “excellent task quality,” “on budget,” and “exceeds
    government’s needs.” Despite the lack of specific comments and examples, the award
    determining official approved all five of the 1-year award-term extensions, totaling $40
    million. We also found other problems with this contract such as the contracting officer
    awarding the term extension 9 months after the 5-year base period of performance had
    ended.

    For another CPAT contract—valued at about $70 million—for National Environmental
    Satellite, Data, and Information Service scientific and technical support services, the PEB and
    contracting officer’s technical representative (COTR) prepared evaluation reports for the
    award determining official without detailed narratives supporting the numerical ratings that
    the contractor received. The reports contained short descriptions or no comments on how
    and why the specific numerical ratings were provided for the contractor. For example, the
    PEB and COTR used descriptions such as “frequent information discussions held with task
    monitors to ensure constant awareness of task status” and “accurate and timely monthly
    technical progress reports; and experimental results from scientific deployments presented
    to the task monitor in a timely fashion” as a basis for supporting additional award terms.
    Despite the lack of clear and specific comments and examples, the contractor earned two
    award terms totaling 7 months at a cost of $3.5 million.

    Best practices from other federal agencies such as NASA, the Air Force, the Army, and the
    Navy generally state that performance monitors should observe contractor performance
    based on the criteria specified in the performance evaluation plan and document results by
    giving specific examples to support their conclusions. Performance monitors’ evaluations
    form the foundation of the award-fee and award-term evaluation process. Without detailed
    performance monitors' reports and examples, NOAA is forced to rely on contractor self-
    assessments and high-level PEB assessments to recommend award-fee and award-term
    extensions, which could result in overstated award fees and unjustified extended contract



FINAL REPORT                                                                                           5
  DEPARTMENT OF COMMERCE
U.S.                                                                            OFFICE OF INSPECTOR GENERAL

       performance. Without sufficient documentation from the performance monitors, we could
       not determine whether the high fees or term extensions awarded were justified.

       B.	 Payment Structures Do Not Provide Adequate Distinctions Between Satisfactory and Excellent
           Contractor Performance

       To encourage contractor excellence, OMB guidance6 on incentive contracts such as CPAF
       and CPAT requires clear distinctions between satisfactory and excellent performance to
       support award-fee and award-term approvals. For the five CPAF contracts that we
       reviewed, award-fee payment structures were not designed to prompt contractors to excel.
       The payment structures that we reviewed associated specific numerical performance scores
       (between 0 and 100) with adjectival ratings—“excellent,” “very good,” “good,”
       “satisfactory,” and “poor/unsatisfactory”—and specified the percentage of the available
       award fee or award terms that contractors could earn for each rating. However, we found
       that contractors did not have to excel to receive a large portion of available award fees. For
       example, NOAA’s payment structure for the Geostationary Operational Environmental
       Satellite-R Series (GOES-R) ground segment services and supplies contract allowed the
       contractor to earn an award fee for “satisfactory” performance—which the contract defines
       as meeting contract requirements with some weaknesses. The payment structure would
       allow up to 70 percent, about $75.6 million, of the award-fee pool for average performance,
       leaving only about $22.7 million to motivate performance that exceeds expectations. This
       type of payment structure not only allows contractors to receive substantial payments for
       average performance but also leaves little in the award-fee pool to encourage contractors
       to exceed expectations and achieve desired contract outcomes. Moreover, FAR section
       16.401 states that the contractor should not earn more than 50 percent of the available
       award-fee pool for satisfactory performance.

       C.	 Evaluation Criteria Do Not Adequately Support Contractor Performance Assessments

       Clear evaluation criteria are critical to ensuring that award fees are commensurate with
       contractor performance. Without clearly defined metrics and outcomes, performance
       ratings are subject to interpretation and can result in unsupported contractor performance
       evaluations and awards. Accordingly, OMB guidance7 calls for incentive contracts such as
       CPAF and CPAT contracts to establish specific performance objectives before contract
       award, such as delivering products and services on time, within cost goals, and of a stated
       level of quality. OMB guidance also states that awards must be tied to demonstrated results,
       as opposed to effort, in meeting or exceeding specified performance standards. Best
       practices from NASA and the Departments of the Air Force, Army, and Navy similarly
       recommend the use of measurable criteria to evaluate contractor performance and warn
       that using broad evaluation criteria can result in monitors being unable to provide
       meaningful comments to support ratings.


                                                            
6
    OMB Memorandum, Appropriate Use of Incentive Contracts, December 4, 2007.
7
    OMB Memorandum, Appropriate Use of Incentive Contracts, December 4, 2007.



FINAL REPORT                                                                                             6
  DEPARTMENT OF COMMERCE
U.S.                                                                              OFFICE OF INSPECTOR GENERAL

       Of the nine contracts reviewed, four had clear and measurable criteria to evaluate
       contractor’s performance. For example, the award-term plan for Software Development
       and Systems Security for the Comprehensive Large Array-data Stewardship System includes
       “98 percent of system components scanned quarterly,” 100 percent of the documentation
       provided meets the stated standards within 30 days,” and “90 percent of system operators
       and administrators are trained prior to introduction of new capabilities.”

       The remaining five contracts—three CPAF and two
                                                                       Criteria and ratings used to evaluate 
       CPAT—had no clear and measurable criteria to                  contractor performance were subjective 
       evaluate performance. For example, on two GOES-                      and  applied inconsistently.
       R contracts, one which provides for antenna
       system development and the other for ground segment services and supplies, contracting
       officials used identical evaluation criteria factors and descriptions for evaluating the
       contractor’s performance rather than tailoring the particular requirements and outcomes of
       each contract. The evaluation plans for these contracts included identical phrases such as
       “the contractor will be evaluated on its ability to maintain an integrated program that links,
       among others: risk management to schedule and cost management, requirements
       management to schedule and cost management,” “support informed, timely, and effective
       decisions to control risks and mitigation plans,” “the contractor will be evaluated based on
       its ability to interface with the Government Furnished Property vendors and the GOES-R
       space segment vendors,” and “this includes, but is not limited to, the following: compliance
       with contract provisions; performance against the Small Business Subcontracting plan
       goals…and timely subcontract adjustments.”

       NOAA should tailor evaluation criteria and factors to fit the circumstances of each
       procurement award to ensure that NOAA’s contract objectives are being met and to
       motivate the contractor to perform the best job in critical areas as determined by NOAA.
       For the two GOES-R contracts, revising the performance evaluation plans to include
       meaningful and measurable award-fee criteria will put approximately $61 million in expected
       award fees to better use. For the other three contracts, no available award fees or terms
       remain because the contracts were converted to another contract type, the period of
       performance ended on the contract, or contracting officials awarded all available award
       terms.

       D.	 NOAA Entered into CPAF and CPAT Contracts Without Sufficient Knowledge of Their 

           Appropriateness


       While CPAF and CPAT contracts can provide incentives toward innovation and cost
       reductions, they require more post-award monitoring and resources than fixed-priced
       contract types. Before a cost-reimbursable contract, such as CPAF or CPAT, is selected,
       the FAR8 requires that each contract file contain documentation showing why the particular
       contract type was selected and the government’s additional risks and burden required in
       managing the selected contract type. OMB guidance9 reinforced this requirement by
       directing contracting officers to conduct and document risk and cost-benefit analyses when
                                                            
8
    FAR section 16.103(d).

9
    OMB Memorandum, Appropriate Use of Incentive Contracts, December 4, 2007. 



FINAL REPORT                                                                                                7
  DEPARTMENT OF COMMERCE
U.S.                                                                             OFFICE OF INSPECTOR GENERAL

       determining whether to use incentive contracts. In addition, according to the FAR,10 an
       incentive contract may only be used when appropriate government surveillance during
       performance will provide reasonable assurance that efficient methods and effective cost
       controls are used.

       Of the nine contracts reviewed, eight contracts lacked documentation justifying the cost-
       effectiveness of selecting an incentive contract as required by the FAR, section 16.103(d)(1).
       In some contracts, the selection of an award-fee or award-term contract type may have
       been questionable. For example, in July 2009, NOAA awarded an approximately $21 million
       CPAF contract for engineering and ground system engineering support services for two
       operational environmental satellite constellations. Subsequently, in June 2011, NOAA
       officials converted this contract to cost-plus-fixed-fee (CPFF) because they realized the
       significant time involved in adequately evaluating contractor performance to determine
       whether an award fee was warranted, thus raising questions about whether the selection of
       a CPAF contract was initially appropriate.

       Of the nine contracts, contracting officials already have converted two that were originally
       executed with award-fee provisions and one with award-term provisions to CPFF contracts.
       NOAA did not document the reasons for changing the initial contract types to CPFF
       contracts. Table 2 contains the contract type before and after conversion of these
       contracts.

                                  Table 2. Contracts Converted to Cost-Plus-Fixed-Fee (CPFF)
                                                               Contract        Contract
                                                                  Type           Type
                                                                 Before          After
                                             Contract         Conversion Conversion
                                   DG133E03CN0012                 CPAF           CPFF
                                   DG133E09CN0101                 CPAF           CPFF
                                   DG133E07CQ0030               CPFF/AT          CPFF
                                    Source: OIG

       Contracting officials stated to us that they converted these three contracts for the following
       reasons:

              	 The scope of work never justified incentives for contract performance.
              	 The Line Offices did not have the resources or experience to administer award-fee
                 contracts.
              	 Acquisition and Grants Office resources were strained because Line Offices would
                 not comply with award-fee processes.
              	 Conversions were completed only after research was done to ensure contract
                 outcomes and deliverables were not jeopardized.


                                                            
10
     FAR section 16.301-3 (a)(4)(ii). 


FINAL REPORT                                                                                              8
  DEPARTMENT OF COMMERCE
U.S.                                                                             OFFICE OF INSPECTOR GENERAL

       Without proper justifications and approvals, NOAA had no assurance that CPAF and CPAT
       contracts were the most appropriate types for these contract actions and could not justify
       the increased risk and administrative burden.

       E. Overlapping Award-Fee and Award-Term Responsibilities Create Additional Risks

       To improve accountability over federal programs and operations, OMB Circular A-12311
       requires that key responsibilities in authorizing, processing, recording, and reviewing official
       agency transactions be separated among individuals performing these duties. Best practices
       from the Departments of the Air Force and Army underscore OMB Circular A-123.
       Specifically, their guidance states that it is especially important for all personnel to
       understand the overall evaluation process and their specific roles and responsibilities within
       their agency to evaluate the contractor's performance. The Federal Aviation
       Administration’s award-fee guide similarly indicates that a three-level organizational
       structure should generally be established using separate individuals for performance
       monitor, PEB, and fee-determining official (FDO) duties.

       However, on two of the contracts we reviewed, NOAA personnel simultaneously fulfilled
       multiple key roles in the award-fee process, such as performance monitor and voting
       member on the PEB. For example, on a contract—totaling approximately $45 million—for
       theoretical analysis, exploratory studies and experiments for satellites, the performance
       evaluation plan designated employees to act as performance monitors as well as members
       on the PEB. In other words, performance monitors are reviewing their own ratings.
       Allowing personnel to simultaneously carry out both performance monitor and PEB
       responsibilities increases the risks inherent to CPAF and CPAT contracts because the PEB,
       when recommending the earned award-fee amount or term extension, is expected to
       provide an objective assessment of the contractor’s overall performance based on
       performance monitors’ evaluations, contractors' self-evaluations, and any other information
       available.

     II.	     Inaccurate and Incomplete Reporting of NOAA’s Open and Active CPAF
              and CPAT Contracts

       In October 2003, the General Services Administration (GSA) introduced FPDS-NG12 as the
       backbone system for government agencies to provide contract award data to OMB. This
       system contains public information on contract spending across the federal government.
       FPDS-NG was designed to enhance the quality and reliability of procurement data by
       allowing agencies to directly upload data from their separate contract writing systems. To
       improve the completeness and accuracy of data in FPDS-NG, OMB directed agency and



                                                            
11
   OMB Circular A-123, Management’s Responsibility for Internal Control, December 21, 2004, and updated as of April

14, 2011. 

12
   The system contains summary-level information about contracts valued at $3,000 or more and paid for with 

appropriated funds.



FINAL REPORT                                                                                                      9
  DEPARTMENT OF COMMERCE
U.S.                                                                                             OFFICE OF INSPECTOR GENERAL

       department heads to ensure they implemented contract writing systems that were capable
       of electronically transferring data directly to FPDS-NG no later than the end of FY 2005.13

       GSA requires each department to complete an annual certification that states the
       completeness and accuracy percentages of their data contained in FPDS-NG. The
       Department of Commerce reported in its FY 2010 annual certification that NOAA had a
       100 percent accuracy rate on information recorded in the contract type field and NOAA's
       overall accuracy rate was 98 percent.

       The Department’s Office of Acquisition Management (OAM) provided us an active list of
       CPAF contracts from FPDS-NG during fiscal years 2008 to 2010. We also requested a list
       of active CPAF and CPAT contracts from NOAA’s Acquisitions and Grants Office, covering
       the same period, to verify the universe of these contracts. We determined that there were
       discrepancies between the two lists.

       To illustrate, OAM identified seven CPAF contracts as active during fiscal years 2008 to
       2010. However, NOAA’s list showed five active contracts—two with award fees and three
       with award terms. Ultimately, we determined that NOAA had nine active CPAF and CPAT
       contracts for that time period: four CPAF contracts, four CPAT contracts, and one
       contract with both award fees and terms. Two of the four CPAF contracts had an
       inaccurate contract type listed in FPDS-NG. NOAA was also unable to locate the contract
       file for one contract identified by OAM as a CPAF contract and in FPDS-NG as a cost-plus-
       incentive-fee (CPIF) contract. Section 4.801 of the FAR requires the head of each office
       performing contracting, contract administration, or paying functions to establish files
       containing the records of all contract actions. Missing files could be an indication of
       questionable contract management and oversight practices. Table 3 contains information on
       the contracts reported by OAM, NOAA, and FPDS-NG.

                        Table 3. Contract Designations According to OAM, NOAA, and FPDS-NG

                                                                 Estimated                                Determination
                                                                 Contract         Per     Per      Per    After Contract
                    Contract No.                                  Amount         OAM    NOAA    FPDS-NG    File Review
         1          DG133E09CN0101                              $ 20,598,869     CPAF     —       CPAF         CPAF
         2          EA133E08CQ0020                                 200,000,000   CPAF     —       CPAF      CPAF/CPAT
         3          DG133E09CN0094                                 735,794,197   CPAF    CPAF     CPAF         CPAF
         4          DG133E10CN0229                                 130,703,026    —      CPAF      FPa       FP/CPAF
         5          DG133E06CQ0030                                  69,999,000   CPAF   CPAT      CPFF      CPFF/CPAT
         6          DG133E03CN0012                                  10,032,561   CPAF     —       CPFF         CPAF
         7          DG133E07CQ0030                                  45,000,000   CPAF     —       CPAF      CPFF/CPAT
         8          DG133W05CQ1067                                 330,000,000    —     CPAT        FP       FP/CPAT
         9          DG133W03CQ0021                                  80,000,000    —     CPAT      ODb       CPFF/CPAT
         10         DG133W03CT0030                                           0   CPAF     —       CPIF       Missing file
                    Total                                      $1,622,127,653      7       5       10             9
            Source: OIG

            Dashes indicate that the contract was not identified in the list to OIG.

            a
              FP—fixed price; bThe contract type recorded in FPDS-NG states order dependent (OD), which allows 

            pricing arrangement to be determined separately for each order. 


                                                            
13
     OMB Memorandum, Timely and Accurate Procurement Data, August 25, 2004.


FINAL REPORT                                                                                                                10
  DEPARTMENT OF COMMERCE
U.S.                                                                  OFFICE OF INSPECTOR GENERAL

    Inaccuracies and deficiencies in maintaining a complete list of active CPAF contracts
    occurred, in part, because NOAA contracting officials did not consistently ensure the
    accuracy of individual contracts reported in FPDS-NG or track combination contracts
    containing award-fee and award-term provisions. Also, since FPDS-NG does not allow
    agencies to code contracts with more than one contract type as combination contracts,
    agencies must use the code for the contract type representing the larger portion of the
    expected contract value. For example, if a contract has both cost-reimbursement and fixed-
    price portions but the fixed-price portion of the contract makes up 60 percent of the
    expected contract value, the contract would be coded as fixed-price. This practice results in
    potentially underreporting award-fee and award-term contracts in FPDS-NG and increases
    the risk of erroneous reporting to internal and external stakeholders such as Congress,
    OMB, and taxpayers. Therefore, having complete and accurate information would allow
    NOAA to monitor the use and execution of these types of contracts more effectively.

Recommendations

We recommend that the Director of the NOAA Acquisition and Grants Office:

        1.	 Require performance monitors to provide narrative comments that identify specific
            strengths, weaknesses, and deficiencies to support assigned ratings.

        2.	 Develop award-fee and award-term incentive structures that encourage contractor
            excellence.

        3.	 Update the performance evaluation plans for contracts DG133E10CN0229 and
            DG133E09CN0094 to add more measurable award-fee criteria.

        4.	 Develop measurable and outcome-based criteria for assessing contractor
            performance for award fees and award-term extensions.

        5.	 Require a cost-benefit analysis in decisions on CPAF and CPAT contracts, including
            documentation of how the benefits will offset the costs and justifications and
            approvals for all contract actions containing award-fee and award-term provisions.

        6.	 Establish clear division of responsibility for the evaluation team (award determining
            official, PEB, and performance monitors) and prohibit the same official from
            performing multiple roles.

        7.	 Develop controls over the maintenance of contract files and contract data to ensure
            more immediate availability and completeness of documentation for contract
            actions.




FINAL REPORT                                                                                        11
  DEPARTMENT OF COMMERCE
U.S.                                                               OFFICE OF INSPECTOR GENERAL


Summary of Agency and OIG Comments 

In responding to our draft report, NOAA concurred with all of our recommendations except
for a draft recommendation that asked NOAA to develop and maintain a database of contracts
with award-fee, award-term, and incentive provisions. NOAA asserted that it would continue
to rely on FPDS-NG and that developing and maintaining a separate database, which would
essentially serve the same purpose as FPDS-NG, would not be an efficient use of its limited
resources.

We agree that NOAA should rely on FPDS-NG for tracking all contract actions. However, we
disagree that FPDS-NG will provide a complete and accurate picture of NOAA’s use of CPAF
and CPAT contracts. As noted in our report, data reported in FPDS-NG and records
maintained by NOAA on the use of CPAF and CPAT contracts were inaccurate and
incomplete. Further, FPDS-NG does not allow agencies to code contracts with more than one
contract type as combination contracts, which forces NOAA to use the code for the contract
type representing the larger portion of the expected contract value. For example, five of the
nine contracts we reviewed had been coded as contract types other than CPAF or CPAT
because the contracts were combination contracts and a larger portion of the expected value
of these contracts was a contract type other than CPAF or CPAT. As a result, we had to rely
on records separately maintained by NOAA and OAM, other than FPDS-NG, to determine the
number of CPAF and CPAT contracts currently in effect. We also found inaccuracies in these
records.

Recognizing NOAA’s intention to address its data quality issues without maintaining a separate
database, we removed the draft recommendation with which NOAA did not concur and are
asking NOAA to develop controls for accumulating contract data in coordination with the
development of its controls over the maintenance of its contract files, as described in
recommendation 7 of this final report.

We look forward to reviewing NOAA’s action plan to address our report recommendations in
greater detail. We have included NOAA’s complete response as appendix E.




FINAL REPORT                                                                                 12
  DEPARTMENT OF COMMERCE
U.S.                                                                 OFFICE OF INSPECTOR GENERAL


Appendix A: Objectives, Scope, and
Methodology
The objectives of our audit were to determine whether the National Oceanic and Atmospheric
Administration (NOAA) properly supported decisions related to award-fee and award-term
ratings and effectively monitored award-fee and award-term plans and contractor performance.

We limited our scope to cost-plus-award-fee (CPAF) and award-term (CPAT) contracts and
task orders. However, we do not have reasonable assurance that we have reviewed all of these
contracts and task orders active during FYs 2008, 2009, and 2010 due to NOAA’s inability to
provide a complete and reliable list when requested by the Office of Inspector General.

To identify the population of NOAA’s CPAF and CPAT contracts, we obtained a list from the
Department of Commerce Office of Acquisition Management (OAM). OAM’s list was
generated from the Federal Procurement Data System-Next Generation (FPDS-NG), covered
FYs 2008–2010, and contained task orders and modifications for CPAF and CPAT contracts.
According to OAM’s list, NOAA’s Acquisitions and Grants Office had 7 active CPAF contracts.
NOAA disagreed, stating it had 2 active CPAF contracts and 3 contracts with award terms.
Three of the 5 contracts NOAA identified as containing award fees or award terms were not
on OAM’s list. Through our review of the contract files, we verified that of the 10 contracts
identified by OAM and NOAA, 4 had award-fee provisions, 1 had award-fee and term
provisions, and 4 had award-term provisions. For one contract, NOAA could not locate and
provide the contract file for our review. As a result, the contract type was not verified for one
of the contracts we intended to include in our audit. A list of contract actions that OAM and
NOAA identified as CPAF or CPAT is shown in tables 4 and 5.

Because of the conflicting information we received related to these contracts, we reviewed the
award documents for the seven contracts on OAM’s list plus the three contracts NOAA
identified that were not contained on OAM’s list. Performing this procedure allowed us to
independently verify which contracts and task orders were awarded with fee and term
provisions, as shown in tables 4 and 5.




FINAL REPORT                                                                                    13
   DEPARTMENT OF COMMERCE
 U.S.                                                                                    OFFICE OF INSPECTOR GENERAL

                            Table 4. Award-Fee Contracts Included in the Audit

                                                                                            Estimated          Estimated
    NOAA                                                                                    Contract           Award-Fee
 Funding Office           Contract No.                        Description                    Amount           Pool Amount
                                                  CPAF contract for engineering and
                                                  ground system engineering support
                   1    DG133E09CN0101            services for two operational             $     20,598,869       $     958,872
                                                  environmental satellite
                                                  constellations: GOES and POES
                                                  Combination FP and CPAF
                   2    DG133E10CN0229            contract for GOES-R series                    130,703,026            5,001,414
                                                  antenna system development
National                                          CPAF contract for GOES-R
Environmental      3    DG133E09CN0094            ground segment services and                   735,794,197           75,647,068
Satellite, Data,                                  supplies
and Information                                   CPAF contract for personnel and
Service                                           equipment to upgrade the
                   4    DG133E03CN0012            Command and Data Acquisition                   10,032,561             655,096
                                                  Stations and Satellite Operations
                                                  Control Center
                                                  IDIQ contract with two CPAF task
                                                  orders and award terms for
                   5    EA133E08CQ0020            Comprehensive Large Array-data                200,000,000            4,341,310
                                                  Stewardship System information
                                                  technology support
Total                                                                                      $1,097,128,653         $86,603,760
 Source: OIG review of contract files
 CPAF = cost-plus-award-fee; GOES = Geostationary Operational Environmental Satellite; POES = Polar
 Operational Environmental Satellite; FP = fixed-price; GOES-R = Geostationary Operational Environmental
 Satellite-R Series; CPFF = cost-plus-fixed-fee; IDIQ = indefinite-delivery, indefinite-quantity.

                           Table 5. Award-Term Contracts Included in the Audit

                                                                                            Estimated          Estimated
    NOAA                                                                                    Contract          Award-Term
 Funding Office           Contract No.                         Description                   Amount           Pool Amount
                                                  CPFF contract with award terms
                   1    DG133E06CQ0030            for scientific and technical support      $    69,999,000   $       15,000,000
National
                                                  services
Environmental
                                                  IDIQ contract with award terms
Satellite, Data,
                                                  for theoretical analysis,
and Information
                   2    DG133E07CQ0030            exploratory studies and                        45,000,000           36,000,000
Service
                                                  experiments for government
                                                  satellites
                                                  IDIQ contract with FP or cost-
                                                  reimbursable task orders and
                   3    DG133W05CQ1067            award terms for Advanced                      330,000,000        295,460,000
National                                          Weather Interactive Processing
Weather                                           System services
Service                                           IDIQ contract with CPFF and FP
                                                  task orders and award terms for
                   4    DG133W03CQ0021                                                           80,000,000           40,000,000
                                                  river, flood, and drought
                                                  forecasting capabilities
Total                                                                                       $ 524,999,000     $ 386,460,000
 Source: OIG review of contract files

 CPFF = cost-plus-fixed-fee; IDIQ = indefinite-delivery, indefinite-quantity; FP = fixed-price. 





 FINAL REPORT                                                                                                              14
  DEPARTMENT OF COMMERCE
U.S.                                                                OFFICE OF INSPECTOR GENERAL

To accomplish our objectives, we reviewed:

    	 relevant policies and guidance to include OMB directives, the Federal Acquisition 

       Regulation, the Commerce Acquisition Manual, and NOAA acquisition guidance; 


    	 a total of nine contracts identified as CPAF by the Office of Acquisition Management and
       NOAA Acquisitions and Grants Office;

    	 award-fee plans and award-term incentive provisions in the contracting officer's files and
       evaluated the payment structure and criteria used to evaluate contractor performance;

    	 documentation supporting contractor evaluations and scoring decisions to verify that (1)
       award fees were paid in accordance with the award-fee plan and (2) award terms, when
       earned, were adequately explained and supported in accordance with the award-term
       incentive provisions of the contract; and

    	 records supporting the payment of award fees to contractors, including assessments of
       contractor performance, and determined whether sufficient descriptive information was
       forwarded to award determining officials.

We also obtained contract files and analyzed documentation on award-fee and award-term
planning, evaluation, and payment processes and interviewed contracting and program officials
responsible for monitoring contractor performance. Additionally, we obtained an understanding
of the internal controls used to manage award-fee and term processes by interviewing the
acquisition personnel at NOAA and assessing their adherence to the requirements in the
Commerce Acquisition Manual. While we identified and reported on internal control deficiencies,
no incidents of fraud, illegal acts, violations, or abuse were detected within our audit. We
identified weaknesses in the controls related to the processes and procedures used to evaluate
and monitor the award-fee and term processes. We did not rely on computer-processed data
to draw our conclusions or to perform this audit.

We conducted the audit fieldwork between May 2011 and February 2012. We performed our
fieldwork at the NOAA Acquisitions and Grants Office - National Capital Acquisition Division
in Silver Spring, Maryland. We conducted this audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives. We performed
our work under the authority of the Inspector General Act of 1978, as amended, and
Department Organizational Order 10-13, August 31, 2006.

 




FINAL REPORT                                                                                   15
  DEPARTMENT OF COMMERCE
U.S.                                                                    OFFICE OF INSPECTOR GENERAL


Appendix B: Potential Monetary Benefits 


                                           Questioned Costs   Funds Put to Better Use

               Unsupported Award-Fee
               Payments and Award-Term       $ 43,802,965           $          0
               Extensions

               Balance of Award-Fee Pool     $          0           $60,927,455




FINAL REPORT                                                                                    16
      DEPARTMENT OF COMMERCE
    U.S.                                                                                       OFFICE OF INSPECTOR GENERAL


    Appendix C: NOAA Award-Fee and Award-
    Term Processes
    The award determining official determines the award-fee amount earned on a CPAF contract
    and the award-term points earned on a CPAT contract at the end of each evaluation period.
    Procedures for monitoring and evaluating contractor performance during each period are as
    follows.

                                          General Overview of Award-Fee Process

1   The contractor may submit its technical proposal recommendation evaluation factors and weightings for the task order.
    Consideration will be given to the contractor’s recommendations; however, the government will determine the specific evaluation
    factors for each evaluation period.
2   At the kick-off meeting, the contracting officer (CO) will provide to the contractor the government’s selected evaluation factors and
    weightings for the task order.
3   The contractor will be apprised in writing by the contracting officer’s technical representative (COTR) of a general assessment of its
    performance at the mid-point of each evaluation period, and at such other times as deemed appropriate.
4   No later than 5 business days after the conclusion of each evaluation period, the contractor may submit a self-evaluation report to
    the Award Fee Evaluation Board (AFEB). This self-evaluation report may not exceed 10 pages in length.
5   The AFEB will meet within fifteen (15) business days after conclusion of each evaluation period to consider all performance
    information it has obtained, including the contractor self-evaluation report (if received within the allotted time in the previous
    paragraph). The AFEB will summarize its findings and recommendations in the Award-Fee Evaluation Report (AFER).
6   The AFEB Chair will present the AFER findings and recommendations to the Fee Determining Official (FDO) within five (5) business
    days of the AFEB meeting. The report will include recommended adjectival rating and performance scores with supporting
    documentation. A copy of the AFER will also be provided to the contractor at the time of AFER submission to the FDO.
7   The contractor may submit to the FDO a supplement to the self-evaluation report within 5 business days of receipt of the AFER to
    provide any additional information to the FDO and in response to AFER that the contractor believes is relevant to its performance
    and that may affect the FDO determination. This supplement shall not exceed 10 pages in length.
8   The FDO will consider the AFEB recommendation, self evaluation report supplement (if submitted) and any other pertinent
    information in determining the performance scores. The FDO findings will be stated in the written award fee determination (AFD).
9   The FDO will provide the AFD to the contractor.
                                        General Overview of Award-Term Process
1   The Award Term Review Board (ATRB) Recorder notifies each ATRB member and performance monitor one week before the
    evaluation period is complete.
2   For each evaluation period, the contractor is required to submit to the contracting officer (CO) a written (10-page maximum) self-
    assessment of their performance two weeks after the current evaluation period ends.
3   Performance monitors review their written records of the contractor’s performance as well as the contractor’s self-assessment and
    submit their evaluation reports to the CO and ATRB no later than two weeks after receipt of contractor’s self-assessment.
4   The CO forwards copies of the performance monitors’ evaluation reports to the contractor upon receipt.
5   The contractor will then orally respond to the performance monitor evaluations via a formal one-hour presentation to all members
    of the Award Term Organization within two weeks after receipt of Monitors’ Evaluation Report.
6   The ATRB will then prepare their evaluation report and recommendation for the award term determining official (ATDO). The
    ATRB chairperson briefs the evaluation results and recommendation of earned award-term points to the ATDO one week after the
    formal one-hour presentation.
7   The ATDO determines the final earned award-term points for the evaluation period within one week after ATRB chairperson’s
    evaluation briefing.
8   A letter from the CO informs the contractor of the earned award term points and the total cumulative points.
9   Upon the accumulation of sufficient award term points, the CO issues a letter/modification within two weeks after the ATDO’s
    determination is made authorizing award extension and/or documenting earned term points.
    Source: NOAA




    FINAL REPORT                                                                                                                  17
  DEPARTMENT OF COMMERCE
U.S.                                                                OFFICE OF INSPECTOR GENERAL


Appendix D: Award-Fee and Award-Term
Definitions
award fee: An amount awarded for excellence in contractor performance as measured by the
  criteria defined and established in the contract within the award-fee pool amount available to
  the contractor.

award determining official: The person responsible for reviewing the recommendations of
  the performance evaluation board in determining the amount of award fee or the length of
  award term extension to be earned by the contractor for each evaluation period.

award-fee plan: The document that identifies the award-fee strategy, detailing procedures for
  implementing the award-fee structure and the method by which the contractor’s
  performance will be evaluated during each evaluation period.

award-term plan: The document that describes the process by which contractor
  performance will be evaluated and defines a process, consistent and effective, resulting in
  equitable appraisals of contractor performance and award-term determinations.

cost-plus-award-fee (CPAF) contract: A cost-reimbursement contract that provides for a
  fee consisting of a base amount fixed at inception of the contract and an award amount,
  based on a judgmental evaluation by the government, sufficient to provide motivation for
  excellence in contract performance.

cost-plus-award-term (CPAT) contract: A contract that awards the contractor by
  extending the contract period of performance. Under an award-term incentive, the
  government monitors and evaluates the contractor’s performance, and if the award
  determining official decides that the contractor’s performance was excellent, then the
  contractor earns an extension. The extension is conditioned upon the government’s
  continuing need for the service and the availability of funds.

cost-plus-fixed-fee (CPFF) contract: A contract that allows for payment of all incurred
  costs within a predetermined amount plus an agreed-upon fee, which will not change.

performance evaluation board (PEB): The board responsible for review of the
  performance monitors’ evaluations, the contractor’s self-evaluation, and any other pertinent
  information for determining the overall position on the effectiveness of the contractor’s
  performance. The board also summarizes its findings and recommendations in an evaluation
  report for submission to the award determining official.

performance monitors: Persons assigned by the program manager to provide input to the
  performance evaluation board on a contractor’s performance.

task order contract: A contract for services that does not specify a firm quantity of services
   to be procured (other than a minimum or maximum quantity).


FINAL REPORT                                                                                    18
  DEPARTMENT OF COMMERCE
U.S.                                                                           OFFICE OF INSPECTOR GENERAL


Appendix E: Agency Response
                                                   UNITilD STATilS Dllf'ARTMilN T OP' COMMIIRC e:
                                                   N•tio nal O c •anic. a n d At_mowphef'fc:   Actmtnt•tn~U o n
                                                   CH IEF ADM INI STRAT IV E OFFIC ER



 May4. 2012

 ~I E MORAN O LM



 FROM:
                     FOR.      Andrew Kntsaros
                                                                1-
                               Assistan ll nspeclor General for Au:i~

                               Ed"ard Ilorton     £/2..;c;;;; ~~
                               NOAA Chief 1\dmini~trmhe O~c~r

 SUOJEC"T                      Draft OJG Report - Nat/una/ Oct:rmlc and Atmn.<pltenc
                               Adminl.vtratian: NOAA 's Cost-Pfus-Award-F<J<' ami Award-Term
                                f'rnt·c.v1·cs Need 10 ."i11ppor1 Fuu,\ ond Extenwunv

 Thank you tor the opportunity to commcm on the Oflice of the lrupeclor Gcoern f"s drnfl audit
 n:port of thl' Nationlll Uce:mic and A tmo:>phenc Atlm inistrnl ion· s munugo:mcnl or", ·1-pln.>­
 award- t~e a nd cost-plus-award-term contracts. Our specific comments on the report' s limlings
 and recom m~ndutions urc unachcd.

 Attachment




FINAL REPORT                                                                                                      19
  DEPARTMENT OF COMMERCE
U.S.                                                                            OFFICE OF INSPECTOR GENERAL



                                    Department of Commer ce
                         National Oceanic and Atmospheric Administration
                           Comments on th e Draft OIG Report Entided
                      "NOAA's Cost-Plus-Award-Fee and Award- Term Processes
                               Need to Support Fees and Exten sion"
                                          (April6, 2012)

     General Comments

     The Department of Commerce's National Oceanic and Atmospheric Administration (NOAA)
     appreciates the considerable time and effort of the Office of Inspector General (OIG) in
     conducting its review of NOAA's management of cost -plus -award-fee and cost-plus-award-term
     contracts.

     Recommended Ch anges for Factual/T echnical Information

     Distinguishing appli cable law and regulation at the time of award may provide additional
     context. In addition, we would suggest distinguishing changes relevant to the subject of the audit
     changed before, during, and after contract award.

     NOAA Response to OIG Recommend ations

     Recommendation 1: Require performance monitors to provide narrative comments that identify
     specific strengths, weaknesses and deficiencies to support assigned ratings.

     NOAA Response: Concur. Performance monitors will be required to provide narrative
     comments that identify strengths, weaknesses and deficienci es to support assigned ratings.

     Recommendation 2: Develop award-fee and award-term incentive structures that encourage
     contractor excellence.

     NOAA Respon se: Concur. NOAA will develop award-fee and award-term incenti ve structures
     that encourage contractor excell ence.

     R ecommendation 3: Update the performance evaluation plans for contracts DG1 33EIOCN0229
     and DG133D09CN0094 to add more measurable award-fee criteria

     NOAA Response: Concur. The performance evaluation plan for contract DG 133D09CN0094
     will be updated. The performance eval uation plan for contract DG133EIOCN0229 will be
     eliminated as part of a conversion to a cost plus fixed fee contract

     R ecommendation 4: Develop measurable and outcome -based criteria for assessing contractor
     performance for award fees and award-term extensions.

     NOAA Respon se: Concur. NOAA will develop award-fee and award-term incentive structures
     that encourage contractor excellence.

     Recommendation 5: Require a cost-benefit analysis in decisi ons on CP.AF and CPAT contracts,
     including docum entation of how the benefits will offset the costs and justifi cations and appr ovals
     for all contract actions containing award fee and award term provisions .




FINAL REPORT                                                                                                 20
  DEPARTMENT OF COMMERCE
U.S.                                                                         OFFICE OF INSPECTOR GENERAL



                                     Department of Commerce
                         National Oceanic and Atmospheric Administration
                           Comments on the Draft OI G Report Entitled
                      "NOAA's Cost-Plus-Award-Fee and Award- Term Processes
                               Need to Support Fees an d Extension"
                                          (April6 , 2012)


      N OAA Response: Concur. NOAA wi ll require a cost-benefit analysis in decisions on CPAF
      and CPAT contracts, including documentation of how the benefits will offset the costs and
      justifications and approval s for all contract actions containing award fee and award term
      provisions.

      R ecommendation 6: Establish clear divi si on of responsibility for the evaluation team (award
      determining official, PEB, and performance monitors) and prohibit the same official from
      performing multiple roles.

      NOAA Response: Concur. NOAA will establish clear division of responsibility for the
      evaluation team (award determining official, PEB, and performance monitors) and prohibit the
      sam e offi cial from performing multiple roles .

      Recommendation 7: Develop and maintain a database of all contracts and orders containing
      award-fee, award-term, and incentive provisi ons.

      N OAA Response: N on-Concur. NOAA will rely on FPDS-NG. NOAA currently utilizes
      FPDS-NG, the government-wide database for tracking all contract actions. N OAA has not
      awarded a CPA1' or CPAT type contract in the past 12 months and it would not be an efficient
      use of our limited resources to develop and maintain a database which is separate from FPDS­
      NG that would essentially serve the same purpose. NOAA will ensure data entered into FPDS is
      accurate by continuing to utilize our current two part method of review and by conducting
      quarterly Independent Verification and Validations (J.V&V) in accordance with CAM 1304.6. It
      should be noted that the IV &V requirement was established after the list of CPAF and CP AT
      contracts reviewed in this audit were awarded and since implementation of CAM 1304.6, NOAA
      has consistently received a 95% or high accuracy rating.

      R ecommendation 8: Develop controls over the maintenance of contract files to ensure more
      immediate availability and completeness of documentation for all contract actions.

      N OAA Response: Concur. NOAA will develop controls over the maintenance of contract files
      to ensure m ore immediate availability and compl eteness of documentation for all contract
      actions.




FINAL REPORT                                                                                           21
